1

NO: 20-1007

IN THE
SUPREME COURT OF THE UNITED STATES

MERRILEE STEWART, PETITIONER
V.

RRL HOLDING COMPANY OF OHIO, ET AL., RESPONDENTS

PETITION FOR REHEARING
ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF OHIO

PETITION FOR REHEARING

Merrilee Stewart
182 Corbins Mill Drive
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se of behalf
of Merrilee Stewart, Petitioner

RECEIVED
APR 2 6 2021
1uPrI»«e'cO|!p<T'n"K

1.

TABLE OF CONTENTS
Table of contents

1.

Table of authorities

n.

I. PREAMBLE

1

MEMORANDUM IN SUPPORT OF PETITION FOR REHEARING
II. PETITION FOR RE HEARING

1

A rehearing is especially apropos in view of new facts and circumstances
which connect and implicate officers to the court in committing Fraud
Upon the Court.
Petitioner now brings new information to this Court’s attention
A. PREPARATORY STATEMENT

1

B. OFFICERS OF THE COURT

2

i. Fraud upon the courts by the officers of the courts
ii. Refusal to abide by the higher court’s decisions/orders
iii. Failure to properly perform on jurisdictional questions
iv. Failure to enforce Federal Law
C. THE CONSTITUTION OF THE UNITED STATES

3

i. A citizens right to judiciary access
ii. The right to have an attorney and the motion considered.
iii. The State Statute, as apphed, is unconstitutional
D. GREAT PUBLIC INTEREST
i. Overt Discrimination in our underserved communities
ii. White-Collar Crimes and crimes against the government
iii. A citizen’s belief and trust in the integrity of the Judiciary
iv. Enforcement of Whistleblower protections

4

11.

E. NEW EVENTS AND CIRCUMSTANCES THAT POSTDATE
THE WRIT OF JANUARY 14, 2021 ........................................ ...........
i. The discovery that Shumaker attorneys are extracting legal fees
from Petitioner Merrilee’s RRL Certified Award for the benefit of
and legal representation of the company that seized all of RRL
assets in violation of law and contract.
ii. The January 22, 2021 and January 25, 2021 Fraudulent Tax
Documents mailed by respondents to Petitioner constituting
Identity Theft, Tax Evasion, Mail Fraud and Retaliation.
iii. The February 9, 2021 decision in 19AP674, confirming the direct
defiance to succeed jurisdiction to the higher court by CPC Judge
and Shumaker with their unauthorized vendetta to silence and
punish the reporter of White-Collar Crimes, Petitioner Merrilee
Stewart, effectively continuing the obstruction of justice.
iv. The February 9, 2021 decision in 19AP674, ignoring the motion
to allow an attorney to proceed on behalf of Petitioner Merrilee
Stewart, instead kicking out a fully briefed appeal with the
unconstitutional application of the “Vexatious Litigator” statute.
v. In the direct defiance of the higher court, Shumaker created
material alterations, a new set of documents and fraudulently
present them by affidavit to the lower CPC as authentic. Then
Shumaker repeated their fraud with their March 16, 2021
fraudulent statements made to the Tenth District Court of Appeals
The March 16, 2021 fraudulent statements made to the Tenth
District Court of Appeals by officers of the court, Shumaker.
“The reality is that the Closing Documents were form
documents contained in the parties' Buy-Sell Agreement.” Id.
page 20 filed by Shumaker on 3/16/21 20AP493
vi. Shumaker again on 3/16/21 in 20AP493 filing, further commits
fraud upon the courts and is in violation of federal whistleblower
laws that serve to protect the reporter of criminal activity.
vii. The March 26, 2021 Supreme Court of Ohio Memorandum in
Support of Jurisdiction of Appellant Merrilee on Appeal from Tenth
District Court of Appeals Case No. 20-AP-674 leading to the
discovery of Fraud upon the Court by Shumaker.

7

111.

III. GROUNDS FOR REHEARING UNDER RULE 44.2

11

A. HISTORICAL
B. TIMELY
C. NEW AND INTERVENING SUBSTANTIAL GROUND NOT
PREVIOUSLY PRESENTED
IV. CONCLUSION
Whereas, the Supreme Court of the United States has the power to
investigate, question and overturn cases that were decided in lower
courts; Whereas, the judgement was obtained by Fraud; Now
Therefore, this case should be overturned and remanded.

Separately submitted
Certificate of Counsel
Certificate of Word Count
Certificate of Service

12

IV.

TABLE OF AUTHORITIES

)

Cases
Blakemore v. Blakemore, 5 Ohio St. 3d 217, 219 (1983)

6

Elliot v. Piersol, 1 Pet. 328, 340, 26 U.S. 328, 340 (1828)

3

Howlett v. Rose, 496 U.S. 356 (1990).

3

Maine v. Thiboutot, 100 S. Ct. 250

3

Owen v. Independence, 100 S.C.T. 1398, 445 US 622

3

Law and references
Civil Rights Act

4

Constitution of The United States of America

4

Fair Housing Act

4

Moore's Federal Practice, 2d ed., p. 512, ^ 60.23

2

Sherman and Clayton Act

4

Taxpayer First Act

7

I. PREAMBLE
Fraud upon the court by officers of the court is the substantial issue in this
case. This Fraud Upon the Court is documented and provable.
A rehearing is especially apropos in view of new facts and circumstances which
connect and implicate officers to the court in committing Fraud Upon the Court.
This Fraud Upon the court, by the officers of the court, deprived Petitioner
Merrilee Stewart of her constitutional due process rights, halted the police and
insurance investigations that were underway and inflicted punishment, all resulting
from fulfilling her duty to report White Collar Crimes (the “Crime Reports”) that were
witnessed firsthand while in the position of president of Respondent IHT Insurance
Agency Group (“IHT”).
The aforementioned occurrence of new facts and circumstances should lead
this Court to conclude that all five constitutional and federal law issues brought forth
in Petitioner Merrilee Stewart’s Writ and this Petition for re-hearing should be
granted.
Furthermore, the case judgement should be reversed and remanded with
instructions applicable to the facilitators and perpetrators of the Fraud.
II. PETITION FOR REHEARING
A. Preparatory Statement
Officers of the courts, including the lawyers and judges in Ohio, take an oath
which includes the duty to defend the constitution and laws of the United States of
America.

1

•

What if these officers of the Ohio courts egregiously perverted the justice
system, utilized Fraud Upon the Court, and blocked a citizen’s constitution
rights to procedural due process?

•

What if these officers of the Ohio courts grasped power as if they were the King,
judge, jury and executioner, and usurped those constitutional powers
belonging to the people?

Then shall not, as the final Arbitrators of the Law and guardians and interpreters
of the constitution, the Supreme Court of these United States step in and ensure the
American people the promise of equal justice under the law?
B. Officers of the court
The Supreme Court of the United States possesses the power to investigate,
question and overturn cases that were decided in lower courts to ensure “EQUAL
JUSTICE UNDER LAW’ as written above the main entrance to the Supreme Court
Building.
Our justice system relies upon officers of the court including judges and
attorneys who have an obligation to promote justice and the effective operation of the
judicial system.
When officers of the court engage in Fraud upon the court, ignore the authority
and orders of the higher court, do not properly succeed to jurisdiction and fail to
enforce Federal Law (as prevails in this case) this seriously affects the integrity of
the normal process of adjudication.

2

First, the 7th Circuit stated "a decision produced by fraud upon the court is not
in essence a decision at all, and never becomes final." Moore's Federal Practice,
2d ed., p. 512,

60.23 and “Officers of the court have no immunity, when violating

a Constitutional right, from liability. For they are deemed to know the law.” Owen
v. Independence, 100 S.C.T. 1398, 445 US 622.
Second, when "Jurisdiction, once challenged, cannot be assumed and must be
decided." Maine v. Thiboutot, 100 S. Ct. 250 and the U.S. Supreme Court stated
that if a court is "without authority, its judgments and orders are regarded as
nullities. They are not voidable, but simply void; [..] and all persons concerned in
executing such judgments or sentences, are considered, in law, as trespassers." Elliot
v. Piersol, 1 Pet. 328, 340, 26 U.S. 328, 340 (1828).
Third, courts are required to follow the decisions of higher courts in the same
jurisdiction.
Fourth, Federal law & Supreme Court cases apply to state court cases.”
Howlett v. Rose, 496 U.S. 356 (1990).
Fifth, this case illustrates the deliberately planned and carefully executed
scheme to defraud, directed to the judicial machinery itself, with fabrication of
evidence by Respondents in which the attorney and judge are implicated. Coupled
with defiance of the higher court, lacking jurisdiction and ignoring Federal law, the
main case, now over six-years-old, has been afforded no discovery, no opportunity to
defend, remains in a stayed status and has Petitioner Merrilee Stewart under a
crippling preliminary entry.

3

Finally, maintaining an effective judicial system is critical to the success of a
democratic society and therefore close scrutiny by the Supreme Court of The United
States is apropos.
C. Constitutional:
The case involves questions arising under the Constitution of The United
States of America. These questions include, but are not limited to: Does a citizen have
a right to judiciary access, a right to have an attorney and the motion considered, and
is the State Statute, as applied, unconstitutional?
The January 14, 2021 Petition for Writ of Certiorari (MERRILEE No. 201007) is, in part, a challenge to the Ohio State Statute which denied Petitioner’s right
to appeal and access to the courts. The writ also includes the reporting of overt
discrimination in the affordability and accessibility of Auto and Home Insurance in
violation of Fair Housing Act, Civil Rights Act, Sherman and Clayton Act. The
suppliers on behalf of Respondents (doing business in 24 states) are being forced to
abide by “Affluent Middle-Class Rules”, or their ability to sell is shut off completely.
D. Public Interest:
This case is of great public interest affecting Petitioner and many other victims
in multiple states.

Respondents’ White-Collar Crimes reported by Petitioner and

embedded in this case include the Respondents documented and collaborated Overt
Discrimination in our underserved communities (harming suppliers and consumers),
the systemic embezzlement of over $8 million and crimes against the government in
their tax evasion schemes.

4

This case also demonstrates the failure of the Ohio courts to enforce the
protections afforded by State and Federal Whistleblower Laws. Instead, the Ohio
courts participated in silencing and punishing Petitioner for her fulfillment of her
duty to report documented and now proven criminal activity, witnessed first-hand
while in a position as President of Respondents’ Company. When the first attempt to
silence and punish Petitioner was reverse by the higher courts, this same judge, along
with Respondent’s attorney, purported the crime reports as Vexatious Litigation so
that Petitioner could no longer appeal any decisions going forward. This was followed
by a staunch refusal to abide by the higher courts order for a hearing on these very
crime reports (the essence of this case).
These crimes were perpetrated upon Petitioner and multiple collaborating
victims by the Respondents and originally reported to: The Columbus Police
Department, The Ohio Civil Rights Commission, The Ohio Department of Insurance
and Hartford and Liberty Mutual Insurance companies.
The Ohio common pleas court (“CPC”) judge applied sanctions and attorney
fees for the fulfillment of Petitioner’s duty of reporting the White-Collar Crimes (the
“crime reports”).
The higher Appellate court disagreed with the CPC judge, and stated Judge
Kim J Brown abused her discretion, “acted unreasonably, arbitrarily, or
unconscionably”, remanded for a hearing and vacated the finding and any award of
sanctions and attorney fees associated with Petitioner:
Appeals Court quote: Id. f 15. “An abuse of discretion connotes more than an
error of law or judgment; it implies the trial court's attitude is unreasonable,
5

arbitrary, or unconscionable. Blakemore v. Blakemore, 5 Ohio St.3d 217, 219
(1983). Claims of error by the trial court must be based on the trial court's
actions, rather than on the magistrate's findings. “Therefore, we may reverse
the trial court's adoption of the magistrate's decision only if the trial court
acted unreasonably, arbitrarily, or unconscionably.”
The reporting of White-Collar Crimes is not litigation. However, this very same
CPC Judge granted a judgement of Vexatious Litigator against Petitioner for these
same crime reports.
In addition, the CPC Judge directly defied the higher court’s order for a hearing
on the crime reports, ignored the law and violated Portioner’s constitutional rights
and protections. This CPC Judge and Respondents attorney’s implementation of the
Ohio Vexatious Litigator Statute results in an unremovable derogatory branding of
a citizen, forever and permanently. This is in direct conflict with the rights granted
to all people by the Constitution of the United States. The guaranteed access to justice
and the inalienable right to a hearing of the facts applies in all cases of law, civil and
criminal.
Furthermore, our citizens must believe and trust the integrity of the Judiciary
and be afforded the protections guaranteed by state and federal law when they fulfill
their duty to report criminal activity. The Enforcement of Whistleblower protections
is an essential component to the quality of justice which lies firmly in the hands of
the Judiciary.
Petitioner continues to endure multiple scorching tactics, including but not
limited to: liable, slander, defamation, industry blacklisting, harassment, retaliation,
threats, identity theft, mail fraud, tax evasion, refusal to supply tax forms and years

6

of non-payment of payroll taxes. In addition, Petitioner has not been afforded any
opportunity to resolve her claims because the CPC Judge refused to lift the stay on
the six-year-old case.
This refusal to open the docket for an opportunity of finality of all parties
claims and defenses and refusal of access to the judiciary violates the protections as
guaranteed under the Constitution. Even more concerning is the CPC judge, in
concert of effort with Respondents council, twice has inflicted harm upon Petitioner
fulfilling her duty to report the Crimes ongoing at Respondents’ business.
When the Judiciary fails, as in this case, the likelihood of future
Whistleblowers coming forward diminishes, as does justice. The Taxpayer First Act
protects Appellant as a tax whistleblower against retaliation as does the U.S.
Constitution and other State and Federal Whistleblower laws.
D. New Events that postdate the Writ of January 14, 2021
These new events are unequivocal proof of Fraud upon the courts facilitated by
Shumaker, Loop & Kendrick’s lead attorney James R. Carnes (“Shumaker”) in
concert of effort with the Ohio lower court Judge Kim J. Brown (“CPC Judge”).
Again, a rehearing is especially apropos in view of these new facts and
circumstances, coupled with the six-year history, which connects, implicates and
substantiates these officers to the court are committing Fraud Upon the Court.
1. The discovery that Shumaker is taking monies belonging to Petitioner in
direct violation of the higher courts order and in violation of law and contract.

7

2. The January 22, 2021 and January 25, 2021 Fraudulent Tax Documents
claiming the money Shumaker took was paid to Petitioner. These tax documents
were mailed by Respondents to Petitioner using private information constituting
Identity Theft, Tax Evasion, Mail Fraud and Retaliation.
It is Shumaker that facilitated making RRL a dead entity on behalf of a new
set of owners on December 31, 2018. See State of Ohio Certificate, Ohio Secretary of
State, Jon Husted, 1658734, Document No(s): 201836501222 effective 12/31/2018.
However, not only did Shumaker withheld that information from the courts, they
fraudulently presented it as a “name change only”.
It was seven months after the killing of RRL in the lower Common Pleas Court,
that Shumaker placed RRL member Fritz Griffioen on the stand to testify “Firefly”
was a name change only and the rebranding of IHT.
The “silent” merging out of existence of RRL by Shumaker did require specific
performance on contracts already certified in Tenth District Court of Appeals and
Awarded to Petitioner. These higher courts requirements, the law and contract were
all ignored by Shumaker. Shumaker, in facilitating this merger out of existence, also
failed to follow the laws of the State of Ohio in formally notifying all known creditors
and possible creditors prior to making RRL a dead entity.
This required notification would have alerted the State to the known
obligations of RRL and prevented the merger out of existence. Shumaker did not
follow the law and presented a false picture to the court by claiming that this was a
“name change only”. This making of RRL a dead entity resulted in a new Federal

8

Employer Identification Numbers (“FEIN”). The original FEIN for RRL was
vanquished and a new FEIN was created for Firefly.
“Silence can only be equated with fraud when there is a legal and moral duty
to speak or when an inquiry left unanswered would be intentionally misleading. We
cannot condone this shocking conduct... If that is the case, we hope our message is
clear. This sort of deception will not be tolerated and if this is routine it should be
corrected immediately. U.S. v. Prudden, 424 F.2d. 1021; U.S. v. Tweel, 550 F. 2d.
297, 299, 300 (1977)”
3. The February 9, 2021 decision in 19AP674, confirming the direct defiance to
succeed jurisdiction to the higher court by CPC Judge and Shumaker with their
unauthorized vendetta to silence and punish the reporter of White-Collar Crimes,
Petitioner Merrilee Stewart, effectively continuing the obstruction of justice.
4. The February 9, 2021 decision in 19AP674, ignoring the motion to allow an
attorney to proceed on behalf of Petitioner Merrilee Stewart, instead kicking out a
fully briefed appeal with the unconstitutional application of the “Vexatious Litigator”
statute.
5. In the direct defiance of the higher court, Shumaker created material
alterations, a new set of documents and fraudulently present them by affidavit to the
lower CPC as authentic. Then Shumaker repeated their fraud with their March 16,
2021 fraudulent statements made to the Tenth District Court of Appeals: “The reality
is that the Closing Documents were form documents contained in the parties' BuySell Agreement.” Id. page 20 filed by Shumaker on 3/16/21 in 20AP493.

This

9

statement not only directly contradicts the “Shumaker” documents previously (prior
to killing RRL) provided in the lower CPC, it is also in direct defiance and disregard
of higher courts determination.
Tenth District Court of Appeals 18AP118, quoted order:
“Therefore, it is ORDERED, ADJUDGED AND DECREED as follows: This
Court hereby confirms the December 11, 2017 Final Award in American
Arbitration Association Case No. 01-16-0003-9163 in all respects, pursuant to
Ohio Rev. Code § 2711.09. The terms of the Final Award (filed with the Motion
as Exhibit C) are specifically incorporated by reference into this Judgment
Entry. The terms of the Final Award shall be binding on the parties.”
EMPHASIS.
Aside from the direct defiance of the higher court, denial of the principles of
preclusion and Res Judicata, Shumaker fraudulently seeks a do-over and re-writing
of an already certified award and contract. Shumaker is aided and abetted by the
lower court CPC Judge in this fraudulent endeavor.
The Certified contract specifically requires the total Award is paid in full if
there is a merger out of existence and RRL does not survive. The Certified contract
further states any subsequent uncured default grants all membership shares as
active share, with full rights including voting rights.
6. Shumaker again on 3/16/21 in 20AP493 filing, further commits fraud upon
the courts and is in violation of federal whistleblower laws that serve to protect the
reporter of criminal activity. In the words of the attorney representing Petitioner in
the responsive fifing: “It appears the main purpose of Appellee’s Brief is to attack Ms.
Stewart’s character, credibility and even her sense of reality”.

10

A diversionary tactic at best, as it was, after all, Shumaker who crafted a
knowingly false affidavit, signed by RRL member Fritz Griffioen, that was uploaded
to the lower CPC court and sent it to the Insurance Companies and the Police to halt
investigations. This fraudulent affidavit claimed the unknowns

(i.e., the

embezzlement of $8 to $10 million) ware totally false. However, later, documented in
writing and signed in meeting minutes, RRL and Shumaker admitted to the
unknowns.
7. It is with the March 26, 2021 filing in the Supreme Court of Ohio,
Jurisdiction Memorandum of Appellant Merrilee Stewart, on Appeal (20-AP-674)
that led to the discovery of Fraud upon the Court by Shumaker in concert of effort
with lower CPC Judge.
This cognizable event not only reveals fraud upon the court in this case, it
demonstrates the intentional obstruction of justice and destruction of RRL for the
sole benefit of a new set of owners (Firefly), all while Shumaker is being paid by RRL.
III. Grounds for rehearing under rule 44.2
A. Historical:
The Supreme Court of the United States denied the January 14, 2021 Petition
for Writ of Certiorari to the Supreme Court of Ohio on March 29, 2021 in this case
named MERRILEE. Merrilee Stewart, Petitioner v. RRL Holding Company of Ohio,
et al, Respondents, Case No. 20-1007.
This petition, in part, challenged the Ohio Vexatious Litigator Statute and was
therefore also served upon David Yost, Ohio Attorney General. Respondent RRL filed
a waiver on March 16, 2021 and Ohio Attorney General did not respond.
11

B. Timely filed in accordance with Rule 44.2:
This Petition for Rehearing is timely filed, within 25 days, and is limited to
“intervening circumstances of a substantial or controlling effect or to other
substantial grounds not previously presented” in accordance with Rule 44.2.
C. New and intervening substantial grounds not previously presented:
This Petition raises new and intervening substantial grounds which should
warrant a rehearing and granting of the Petition for Writ of Certiorari.
The intervening circumstances of a substantial or controlling effect not
previously presented include seven specific events which postdate the January 14,
2021 filing of the Writ leading to compounding constitutional and federal law
infringements.
The occurrence of these new facts and circumstances should lead this Court to
believe that all five constitutional and federal law issues brought forth in the Writ
have merit and the compounding injuries to Petitioner are caused by officers of the
court committing Fraud Upon the Court.
IV. Conclusion
For the reasons set forth above, Petitioner Merrilee Stewart prays this Court
will grant rehearing under Rule 44.2 and grant the Petition for Writ of Certiorari to
the Supreme Court of Ohio and reverse judgement with remand with instructions.
V. Certificate of Counsel
I hereby certify that this petition for rehearing is presented in good faith, not
for delay, and is restricted to the grounds specified in Supreme Court Rule 44.2.

12

Respectfully Submitted,
Merrilee Stewart
/s/ Merrilee Stewart
Merrilee Stewart
182 Corbins Mill Drive
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se on behalf of
Merrilee Stewart, Petitioner

13

NO: 20-1007

IN THE
SUPREME COURT OF THE UNITED STATES

MERRILEE STEWART, PETITIONER
V.
RRL HOLDING COMPANY OF OHIO, ET AL., RESPONDENTS

PETITION FOR REHEARING
ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF OHIO

CERTIFICATE OF COUNSEL
FOR THE PETITION FOR REHEARING
I hereby certify that this petition for rehearing is presented in good faith, not
for delay, and is restricted to the grounds specified in Supreme Court Rule 44.2.
Respectfully Submitted,
Merrilee Stewart
/s/ Merrilee Stewart
Merrilee Stewart
182 Corbins Mill Drive
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se on behalf of
Merrilee Stewart, Petitioner

